SUPREME COURT OF THE UNITED STATES

No. 21-5148

GREGORY DEW
Petitioner, pro se

v. LASHANN EPPINGER, WARDEN
Respondent

PETITIONER'S MOTION TO DISMISS HIS PETITION FOR
WRIT OF CERTIORARI WITHOUT PREJUDICE
The Petitioner moves this Honorable Court to have his Petition for a Writ of
Certiorari, as captioned above, voluntarily dismissed without prejudice. Petitioner
was working on his Writ to file with the Court, but was deterred due to COVID 19
restrictions in the institution where he is being held. Petitioner filed his Petition
prematurely, as he was unaware the Court had extended the time for filing the
Petition to 150 days pursuant to Order 589 U.S., and wanted to ensure timely filing.
While Petitioner was able to finish a rough draft of his Petition and file the same,
he was not able to finish editing the document prior to filing.
Petitioner is still having difficulty with law library access due to ongoing
COVID 19 restrictions and related staff shortages in the institution, but will strive
to refile the finished Petition in a timely manner under the extended deadline. If
any further difficulty arises, Petitioner will seek an extension of time pursuant to
and consistent with Order 589 U.S.

RECEIVED
AUG - 5 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

